Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




      HUDSON RIVER
 HEALTHCARE, INC., CLAIMED
UNALLOWABLE FEDERAL GRANT
      EXPENDITURES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    James P. Edert
                                               Regional Inspector General

                                                        April 2013
                                                      A-02-11-02014
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVESU~RY


BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17,2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation's uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP) and
Increased Demand for Services (IDS) grants.

Hudson River HealthCare, Inc. (Hudson River) is a nonprofit organization that operates a
network of 16 health centers throughout southeastern New York State. Hudson River provides
primary, preventative, and behavioral health care services and is funded primarily by patient
service revenues and Federal grants.

In 2009, HRSA awarded Hudson River approximately $2.9 million in Recovery Act funds, of
which Hudson River expended approximately $2.7 million. Approximately $2 million of this
amount was awarded under a CIP grant to renovate its existing health centers and enhance its IT
and electronic health records infrastructure. Approximately $900,000 was awarded under an IDS
grant to sustain its current workforce and hire additional staff.

Hudson River must comply with Federal cost principles in 2 CFR part 230, Cost Principles for
Non-Profit Organizations, the requirements for health centers in 42 U.S.C. § 254(b), and the
financial management system requirements in 45 CFR § 74.21.

OBJECTIVE

Our objective was to determine whether Hudson River's Recovery Act grant expenditures were
allowable.

S~RY         OF FINDINGS

Hudson River claimed Recovery Act grant expenditures totaling $280,558 that were
unallowable. Specifically, Hudson River claimed unallowable CIP expenditures totaling
$260,586 and unallowable IDS expenditures totaling $19,972. The unallowable claims occurred
because Hudson River did not properly comply with its policies and procedures for determining
the allowability of costs claimed to Federal grants.



                                               i
RECOMMENDATIONS

We recommend that HRSA:

   • 	 require Hudson River to refund $280,558 to the Federal Government ($260,586 related to
       the CIP grant and $19,972 related to the IDS grant) and

   • 	 ensure that Hudson River follows its policies and procedures for determining the 

       allowability of costs claimed to Federal grants. 


HUDSON RIVER HEALTHCARE, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our initial draft report, Hudson River disagreed with several of our
findings based on its interpretation of Federal regulations and guidance on prior approval that,
according to Hudson River, it received from HRSA. After reviewing Hudson River's comments
and consulting with HRSA officials, we removed one finding and corresponding recommended
disallowance of $25, 115 related to cabinetry purchases that Hudson River made under the CIP
grant. We maintain that our findings and recommendations in this report are valid. Hudson
River's comments appear as the Appendix.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

   In written comments on our second draft report-which included Hudson River's written
comments on our initial draft report-HRSA concurred with our recommendations. Specifically,
  HRSA stated that it will work with Hudson River to determine if any CIP or IDS grant funds
need to be refunded to the Federal government. HRSA also stated that it will work with Hudson
   River to ensure that the grantee adheres to its policies and procedures for determining the
                         allowability of costs claimed to Federal grants.




                                               ii
                                                  TABLE OF CONTENTS 




INTRODUCTION........................................................................................................................ 1 


          BACKGROUND ............................................................................................................... 1 

              Health Center Program .......................................................................................... 1 

              American Recovery and Reinvestment Act of 2009.............................................. 1 

              Hudson River HealthCare, Inc ............................................................................... 1 

              Federal Requirements for Grantees ....................................................................... 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 2 

               Objective ................................................................................................................ 2 

               Scope...................................................................................................................... 2 

               Methodology .......................................................................................................... 2 


FINDINGS AND RECOMMENDATIONS .............................................................................. 3 


          UNALLOW ABLE EXPENDITURES CLAIMED 

           FOR FEDERAL REIMBURSEMENT .......................................................................... 3 

               Federal Requirements ........................................................................................... 3 

               Expenditures for the Capital Improvement Program Grant.. ................................. 4 

               Expenditures for the Increased Demand for Services Grant ................................. 5 


          RECOMMENDATIONS ................................................................................................... 5 


          HUDSON RIVER HEALTHCARE, INC., COMMENTS AND 

           OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 5 

               Capital Improvement Program Grant Expenditures Not Approved by HRSA ...... 5 

               Capital Improvement Program Grant Expenditures That Exceeded 

                 the Approved Budget .......................................................................................... 6 

               Increased Demand for Services Grant Expenditures ............................................. 7 


          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS ........... 7 


OTHER MATTER: EMPLOYEE SALARIES AND PRESIDENT AND CHIEF 

 EXECUTIVE OFFICER BONUSES ...................................................................................... 7 


APPENDIXES

         A: HUDSON RIVER HEALTHCARE, INC., COMMENTS

         B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                    lll
                                             INTRODUCTION 


BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation's uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP) and
Increased Demand for Services (IDS) grants.

Hudson River HealthCare, Inc.

Hudson River HealthCare, Inc. (Hudson River) is a nonprofit organization that operates a
network of 16 health centers throughout southeastern New York State. Hudson River provides
primary, preventative, and behavioral health care services and is funded primarily by patient
service revenues and Federal grants.

In 2009, HRSA awarded Hudson River approximately $2.9 million in Recovery Act funds, of
which Hudson River expended approximately $2.7 million. Approximately $2 million of this
amount was awarded under a CIP grant to renovate its existing health centers and enhance its IT
and electronic health records infrastructure. Approximately $900,000 was awarded under an IDS
grant to sustain its current workforce and hire additional staff. 1

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, Hudson River must comply with Federal cost
principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a).

1
 The grant budget periods covered by our audit were: June 29, 2009, through June 30, 2012, for the CIP funds; and
March 27, 2009, through March 26, 2011, for the IDS grant funds.



                                                        1

These cost principles require that grant expenditures submitted for Federal reimbursement be
reasonable, allowable, and allocable. Hudson River must also comply with the requirements for
health centers in 42 U.S.C. § 254(b). The HHS awarding agency may also include additional
requirements that are considered necessary to attain the award's objectives.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b)(l)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.2l(b)(7)). Grantees also must have written procedures for determining the
reasonableness, allocability, and allowability of expenditures in accordance with applicable Federal
cost principles and the terms and conditions of the award (45 CFR § 74.2l(b)(6)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Hudson River's Recovery Act grant expenditures were
allowable.

Scope

We reviewed costs totaling $2,744,942 that Hudson River charged to its CIP and IDS grants for
the period March 27, 2009, through June 30, 2011.

We performed our fieldwork at Hudson River's administrative office in Peekskill, New York,
during September 2011.

Methodology

To accomplish our objective, we:

   • 	 reviewed relevant Federal laws, regulations, and guidance;

   • 	 reviewed Hudson River's CIP and IDS grant applications and supporting documentation;

   • 	 interviewed Hudson River personnel to gain an understanding of Hudson River's
       accounting system, internal controls over Federal expenditures, and CIP and IDS grant
       activities;

   • 	 reviewed Hudson River's procedures on accounting for Recovery Act funds, time and
       effort certification, payroll processing, withdrawing Federal funds, and company vehicle
       use;

   • 	 reviewed Hudson River's independent auditor's reports and related financial statements
       for fiscal years 2008 through 201 0; and


                                               2

    •   reviewed expenditures claimed on Hudson River's CIP and IDS grants for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Hudson River claimed Recovery Act grant expenditures totaling $280,558 that were
unallowable. Specifically, Hudson River claimed unallowable CIP expenditures totaling
$260,586 and unallowable IDS expenditures totaling $19,972. The unallowable claims occurred
because Hudson River did not properly comply with its policies and procedures for determining
the allowability of costs claimed to Federal grants.

UNALLOWABLE EXPENDITURES CLAIMED FOR FEDERAL REIMBURSEMENT

Federal Requirements

Pursuant to 2 CFR part 230, Appendix B, § 15.b, capital expenditures for general purpose
equipment, buildings, and land are unallowable as direct charges, except where approved in
advance by the awarding agency. In addition, capital expenditures for improvements to land,
buildings, or equipment are unallowable as a direct cost except with the prior approval of the
awarding agency.

Pursuant to 2 CFR part 230, Appendix B, § 8.h, the portion of the cost of organization-furnished
automobiles that relates to personal use by employees (including transportation to and from
work) is unallowable as fringe benefits or indirect costs regardless of whether the cost is reported
as taxable income to the employees. These costs are allowable as direct costs to sponsored
awards when necessary for the performance of the sponsored award and approved by awarding
agencies.

Pursuant to 45 CFR § 74.25, recipients are required to report deviations from budget and
program plans, and request prior approvals for budget and program plan revisions when there is a
change in the scope or the objective of the project or program, even if there is no associated
budget revision requiring prior written approval.

Pursuant to 2 CFR part 230, Appendix B, §§ 8.b(2) and 8.m, for salaries and wages to be
allowable for Federal reimbursement, grantees must maintain personnel activity reports of the
actual activity for each employee working on Federal awards. These reports must be signed by
the employee or a supervisory official having firsthand knowledge of the employee's activities,
be prepared at least monthly, coincide with one or more pay periods, and account for the total
activity of the employee.




                                                 3

Expenditures for the Capital Improvement Program Grant

Hudson River claimed unallowable CIP grant expenditures totaling $260,586. Specifically,
Hudson River claimed $92,229 for general purpose equipment purchases that were not approved
by HRSA and exceeded its approved budget for certain items by $168,357 without HRSA
approval.

Expenditures Not Approved by HRSA

Contrary to 2 CFR part 230, Appendix B, § 15.b, Hudson River made $92,229 in general
purpose equipment purchases that were not approved by HRSA (the awarding agency).
Specifically, Hudson River purchased a cabling upgrade related to its voice over Internet
protocol (VoiP) system ($73,188) and a vehicle, a 2008 Nissan Altima Hybrid ($19,041). These
purchases were not in Hudson River's HRSA-approved budget and Hudson River did not receive
prior approval from HRSA before making these purchases. Therefore, the $92,229 claimed was
not allowable for Federal reimbursement. 2

These unallowable claims occurred because Hudson River did not properly comply with its
policies and procedures for determining the allowability of costs claimed to Federal grants.
Hudson River stated that it believed it had HRSA approval for the cabling upgrade related to its
VoiP system and did not believe that prior approval was needed for the vehicle purchase.

Expenditures that Exceeded the Approved Budget

Contrary to 45 CFR 74.25 (b), Hudson River exceeded its approved budget by $168,357 without
prior approval from HRSA. Specifically, Hudson River exceeded its HRSA-approved budget by
$137,678 for a VoiP system, $14,040 for cabinetry at its Beacon site, $8,539 for helpdesk
software, and $8,100 for cabinetry at its New Paltz site.

These unallowable claims occurred because Hudson River did not properly comply with its
policies and procedures for determining the allowability of costs claimed to Federal grants.
Specifically, Hudson River did not know approval was required for budget deviations. Hudson
River stated that it was unaware that budget deviations below 25 percent of its budgeted amount
required approval from the awarding agency prior to purchase. 3




2
 We also noted that the Nissan Altima Hybrid was assigned to the Assistant Vice President of Clinical Operations
and Facilities Management and was used for both work and personal reasons, including transportation to and from
work. Therefore, the vehicle was also unallowable under 2 CFR pt. 230 App. B § 8.h.
3
  The 25 percent rule that Hudson River referred to is listed in the terms and conditions on pages 15 and 16 of the
CIP Notice of Grant Award, dated June 25, 2009, and is an additional requirement that applies to significant
rebudgeting of project costs where there are transfers of funds between cost categories exceeding 25 percent or
$250,000 (whichever is less) of the total approved budget. If some or all of the rebudgeting reflects a change in
scope, prior approval is required, even if the transfers are below the 25-percent or $250,000 threshold (45 CFR
§ 74.25).


                                                          4

Expenditures for the Increased Demand for Services Grant

Contrary to 2 CFR part 230, Appendix B, §§ 8.b(2) and 8.m, Hudson River did not adequately
document $19,972 in salary costs that it charged to the IDS grant; therefore, these costs were
unallowable. While Hudson River generally maintained personnel activity reports for its
employees, as required by Federal regulations, it failed to charge the IDS grant the correct
amount reflected on two employees' activity reports. As a result, Hudson River overcharged its
IDS grant a total of $14,115 in salary costs related to the two employees. In addition, Hudson
River could not provide supporting documentation for one employee's salary charge of $5,857.

These unallowable claims occurred because Hudson River did not properly comply with its
policies and procedures for determining the allowability of costs claimed to Federal grants.
Specifically, Hudson River did not follow its procedures for time and effort certification, which
required that "supervisors, with firsthand knowledge of employee's activities ... sign each report,
attesting after the time is incurred, to the accuracy of the time allocated to each grant, and that
100 percent of the employee's time has been allocated."

RECOMMENDATIONS

We recommend that HRSA:

    • 	 require Hudson River to refund $280,558 to the Federal Government ($260,586 related to
        the CIP grant and $19,972 related to the IDS grant) and

   • 	 ensure that Hudson River follows its policies and procedures for determining the 

       allowability of costs claimed to Federal grants. 


HUDSON RIVER HEALTHCARE, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our initial draft report, Hudson River disagreed with several of our
findings based on its interpretation of Federal regulations and guidance on prior approval that,
according to Hudson River, it received from HRSA. After reviewing Hudson River's comments
and consulting with HRSA officials, we removed one finding and corresponding recommended
disallowance of $25,115 related to cabinetry purchases that Hudson River made under the CIP
grant. We maintain that our findings and recommendations in this report are valid. Hudson
River's comments are included in their entirety as Appendix A.

Capital Improvement Program Grant Expenditures Not Approved by HRSA

Hudson River Comments

Hudson River stated that a cabling upgrade ($73, 188) related to its VoiP system was identified as
part of its approved award budget. Specifically, Hudson River stated that the budget justification
submitted in its CIP application, which it provided under separate cover as part of a package of
additional documentation, indicated that it proposed using $75,000 for a VoiP system in addition



                                                5

to separate line items for equipment related to the VoiP system. In addition, Hudson River
concurred with our finding regarding the Nissan Altima Hybrid vehicle purchase ($19,041). 4

Office ofInspector General Response

After reviewing the additional documentation that Hudson River provided with its response and
consulting with HRSA officials, we maintain that the cabling upgrade was not in Hudson River's
original budget or approved by HRSA. 5 According to Hudson River's CIP application, the
proposed budget contained two line items related to the VoiP system, totaling $175,000-the
actual VoiP system ($75,000) and handsets for the VoiP system ($100,000). The $73,188
cabling upgrade was in addition to these approved amounts.

Capital Improvement Program Grant Expenditures That Exceeded the Approved Budget

Hudson River Comments

Hudson River stated that prior approval was not required for any of the expenditures that we
determined were in excess of its approved budget. Hudson River stated that, according to its
interpretation of 45 CFR § § 74.25(c) and (f), none of the situations requiring prior approval
related to the situations described in our findings. Hudson River further stated that no additional
Federal funds were used for these expenditures and that prior approval was sought and obtained
from HRSA to delete the medical van from the budget and repurpose those funds to other
equipment purchases where the costs were over budget. Hudson River provided documentation
of these communications with HRSA under separate cover as part of its package of additional
documentation.

Office ofInspector General Response

After reviewing the additional documentation that Hudson River provided with its response and
consulting with HRSA officials, we maintain that our findings and recommendations are valid.
While Hudson River requested approval to repurpose medical van funds on May 18, 2011, in
addition to a no-cost extension request, HRSA approved only the no-cost extension on
June 24, 2011. HRSA did not require grantees to obtain prior approval for budget revisions of
less than 25 percent or $250,000 (whichever is less) as long as the approved scope of work of the
project did not change. However, HRSA officials confirmed that the removal of the medical van
purchase from the CIP grant project-which supported the increased costs of the purchases listed
in our findings described in the "Expenditures that Exceeded the Approved Budget" section of
this report (page 4 )-would have required prior review and approval because it was a change in
the scope of work of the project (45 CFR §§ 74.25(c) and (f)).


4
  In its comments, Hudson River also stated that cabinetry purchases totaling $25,115, which we questioned in our
initial draft report, were approved by HRSA. HRSA officials confirmed that prior approval for the purchases were
provided in emails between HRSA and Hudson River; however, we were not aware of these approvals at the time of
our fieldwork. Consequently, we removed the finding and corresponding recommended disallowance from our
report.
5
    HRSA officials confirmed that the cabling aspect of the VOIP project required prior approval.


                                                           6

Increased Demand for Services Grant Expenditures

Hudson River concurred with our finding regarding the inadequately documented salary costs
charged to the IDS grant.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our second draft report-which included Hudson River's written
comments on our initial draft report-HRSA concurred with our recommendations. Specifically,
HRSA stated that it will work with Hudson River to determine if any CIP or IDS grant funds
need to be refunded to the Federal government. HRSA also stated that it will work with Hudson
River to ensure that the grantee adheres to its policies and procedures for determining the
allowability of costs claimed to Federal grants. HRSA's comments are included in their entirety
as Appendix B.

                     OTHER MATTER: EMPLOYEE SALARIES AND 

                 PRESIDENT AND CHIEF EXECUTIVE OFFICER BONUSES 


According to its IDS grant application, Hudson River planned to subsidize the salaries of
approximately 16 full-time equivalent employees (FTEs) with Recovery Act funds. 6 Of the 16
FTEs, approximately 7 were to be new hires so that Hudson River could expand its services. In
its application, Hudson River stated: "Due to the economic crisis, Hudson River has been forced
to make some tough decisions around cost savings and has implemented salary reductions and
was preparing to lay-off 9 essential health center employees .... IDS funding will allow Hudson
River to retain these 9 positions and preserve our existing successful clinical infrastructure and
outreach model."

During our fieldwork we confirmed that Hudson River subsidized the salaries of 16 FTEs with
IDS grant funds. We also learned, through discussions with management, that Hudson River
was in a very positive cash position and was able to wait several months before drawing down
Federal funds to pay for its IDS grant expenditures. As of December 31, 2008-prior to
receiving the Recovery Act grants-Hudson River had a cash balance of $664,342, an operating
income before depreciation of$443,978, and a net cash flow of$447,152. As of December 31,
2009, Hudson River had a cash balance of approximately $5 million, an operating income before
depreciation of approximately $3.9 million, and a net cash flow of approximately $4.3 million.
Finally, as of December 31,2010, Hudson River had a cash balance of approximately $6.4
million, an operating income before depreciation of approximately $3.8 million, and a net cash
flow of approximately $1.4 million.

Despite the economic crisis-and the salary reductions Hudson River stated that it
implemented-its president and chief executive officer received significant bonuses during 2009
and 2010. In 2009, the first year Recovery Act funds were awarded, she received a bonus

6
  The requirement for reporting jobs is based on a simple calculation used to avoid overstating the number of other
than full-time, permanent jobs. The FI'E calculation converts part-time or temporary jobs into "full-time
equivalent" (FI'E) jobs. The number of FI'Es is calculated as total hours worked in jobs created or retained divided
by the number of hours in a full-time schedule, as defined by the recipient.


                                                          7

totaling $87,816. In 2010, she received a bonus totaling $126,000. We noted that, during 2007
and 2008, she did not receive any bonuses. These bonuses were not paid directly from Recovery
Act grant funds; however, rather than using Recovery Act funds to subsidize some of the
essential health center employees that it stated would be laid-off due to the economic crisis,
Hudson River could have used the bonus money paid to its president and chief executive officer
to subsidize these essential employees.




                                              8

APPENDIXES 

                                                                                                                  Page 1 of 6


     APPENDIX A: HUDSON RIVER HEALTHCARE, INC., COMMENTS


                                                                                                1200 Brown Street
communi~                        EXCELLENCE                                                      Peekskill. NV 10566
Hudson River HealthCare         DEDICATION                                                      Telephone 845.734.8800
                                COMMUNITY                                                       www .hrhca.re.org




       August 20, 2012




       Mr. James P. £dert 

       Regional Inspector General for Audit Services 

       Department of Health and Human Services 

       Office of Inspector General 

       Jacob 1<. Javits federal Suilding 

       2'6 federal Plaza, Room 3900 

       New York, NY 10278 


       Re:     A-02-11..02014

       Dear Mr. Edert:

       EnClosed please find Hudson River HealthCare, Inc.'s, written response to the U.S. Department of Hea'lth
       and Human Services, Office of lnspector General {01Gl draft report titled Oafmed Unallowable fetleral
       Grant Expenditures.

       lf you have any questions you may contact my office at (914) 734-8747 or anolon@hrhcare.org




       President and CEO

       Enclosure

       Cc;    John J. Madigan




Peekskill Beacon Poughkeepsie Goshen New Paltz Walden Monticello Yonkers 

Amenia Dover Plains Pine Plains Greenport Coram Haverstraw Spring Valley 

                                                                                                    Page 2 of6




Hudson River Healthcare ("HRHCare") is in receipt of1he U.S. Department of Health and
Human Services, Office of Inspector General's (''OIG 's"') draft audit report number A-02-11­
02014 entitled "Hudson River Healthcare, Inc., Claimed Unallowable Federal Grant
Expenditures" dated July i6, 2012.

The subject audit covered two federal awards from the Health Resources and Services
Administration ("'HRSA") -one under the Capital Improvement Program ("'CIP"), and the oilier
under the Increased Demand fur Services ("IDS") progam. The CIP award was in the amount of
$1,994,540.00 to support improvements ro certain HRHCare facilities, upgrades ro HRHCare
information technology and communications systems, and purchase ofa mobile medical unit
The IDS award was in the amount of$917,182.00 to support existing staff compensation and
hiring ofnew staff. The OIG audit reviewed CIP expenditures from June 29, 2009 through June
30, 2{)12, and .IDS expenditures from March 27, 2009 through March 26, 2011.

The draft audit report recommends that HRSA disaUow a rota! of$305,673.00, oonsisting of
$285,701.00 in cl.wrges roHRHCare's CIP grantand:$19,972.00 inoostsunderthe IDS award.
The recommended disallowance ofCIP expenditures relates ro alleged equipment purchases and
costs in excess of the award budget without prior agency approval. Tile IDS recommendatinn is
in connection with amounts overcharged to the award and lack ofdocumentation to support
cel1ain salary charges..

HRHCare :responds to the draft report recommendations as follows:

                                         DISCUSSION

L      Expenditures Not Approved by H1tSA

finding:

The draft report indicates that HRHCare "purehased a cabling upgrade related to its voice over
Internet protocol (VoiP) system ($73,188), cabinetry ($25,115) and a vehicle, a2008 Nissan
Altima Hybrid ($19,041)" without either including those pun;hases in the approved grant budget
or seeking .HRSA authorization to incur those expenses. See Draft Report at 4. According to the
OIG, HRHCare thns violated 2 C.f.R. Part 230, App. B, § 15.b. !d. Part 230 oftitle 2 ofthe
Code ofFederal Regulations is the codification of Office of Management and Budget ("'OMB")
Circular A-122, which sets out the cost principles applicable ro awards offinancial assistance to
not-for-profit organizations. The subsection to which the .draft report refers provides that
"{c]apital expenditures for general purpose equipment, buildings, and land are unallowable as
direct charges, except where approved in advance by the awarding agency." See 2 C.F.R. Part
230, App. B, § l5.b.(l).

Response:
                                                                                                      Page 3 of6




As to the VoiP expenses, the OIG is incorrect in asserting that the equipment was oot identified
as part ofan approved award budget.

The budget justification that HRHCare submitted in its application for CIP funds under HRSA
 Announcement No. HRSA-09-244 clearly shows that HRHCare proposed to use $75,000.00 for
••voice Over Internet Protocol Phone System to create call center and maximize netwmk
conununications."" See Att. A. This is in addition to separate line items in fue equipment
category providing for purchase ofoilier computer hardware and peripherals relating to ilie VoiP
system. ld. The ''Voice Over IP Teiecommunications System" line item in the approved budget
would therefore encompass infrastructure improvements (such as cabling upgrades} necessary to
the implementation ofthe VoiP system.

The OIG is similarly mistaken in characterizing the cabinetry costs either as "general purpose
equipment" purchases or as unapproved expenditures. The cost principles define ''equipment" as
"an article ofnonexpendable, tangible personal property having a useful life ofmore than one
year" and having an acquisition cost above a certain threshold See 2 C.F.R. Part 230, App. B, §
l5.a(2) {emphasis added). Although Part 230 itself contains no definition of"personal
property," the uniform administrative requirements applicable to HHS awards to not-for-profit
entities state that personal property is "property ofany kind except real property." See 45 C.F.R.
§ 74.2. "Real property," in turn, consists of"land, mciuding land improvements, strm.iures and
appurtenances thereto, but excludes movable :nUJchinery and equipment." Jd. (emphasis :added).

Contrary to the statement in the draft report, cabinetry is properly viewed as real property rather
than as equipment. This is so because cabinets are fixtures to the structures mwhich they reside.
They are therefore not "movable machinery {orj equipment.," but are instead improvements
incorporated inro HRHCare facilities. Accordingly, any prior approval requirement that might
attach to HRHCare's use ofgrant funds for cabinetry would be under 2 C.F,R. Part 230, App. B,
§ 15.b.(3), which provides that "[c]apital expenditures for improvements to Jlanrl, buildings, or
equipment which materially increase their value or useful life are unallowable as a direct oost
except with 'the prinr approval ofthe awarding agency."

HRHCare did, in fact, have prior agency approval of the questioned cabinetry oosts. HRHCare
understands that the $25,115.00 charge to which the draft report refers relates to cabinets
installed as part ofthe renovation of the internal medicine department at HRHCare's Peekskill
facility. Tire revised approved budget for the Peekskill project included $250,000.00 under the
"construction" cost category. See Att. B. The budget justification provided to HRSA sought
general authorization to use CIP funds for improvements to the internal medicine portion ofthe
facility, including "minor renovations required for electrical, plumbing, HVAC, fixed equipment,
interior finishes, etc." ld. The cost ofmaterials and labor associated with installation ofcabinets
at the Peekskill site falls within this description of the "construction" cost category in the
approved budget There is therefore no basis on which to conclude that the cabinetry oosts
lacked any .necessary HRSA approvaJ.(s).
                                                                                                      Page 4 of6




As to the recommended disallowance of$19,041.00 associated wiih the purchaseofa2008
Nissan Altima Hybrid, HRHCare agrees v.riih the finding and acknowledges the lack of
tnmsportation logs fur the vehicle. HRHCare is cmrently reviewing its motor pool and personal
use policies and practices and v.rilllake appropriate action(s) upon completion oftbat review.

II.     Expenditures that Exceeded the Approved Budget

Finding:

The draft report further states that, "(c]ontrary to 45 CFR 74.25 (b), Hudson River exceeded its
approved budget by $168.357 wiihout prior approval from HRSA." See Draft Report at 4. The
$168,357.00 figure consists ofalleged cost ovem:ms in the following amounts: (1) $137,678.00
forthe.VoiP system; (2) $14,040.00 for cabinetry at HRHCare's Beacon site; (3) $8,539.00 for
helpdesk software; and(4) $8,100.00 for cabinetry atHRHCare's New Paltz facility. ld
According to the OIG, "[t]hese unallowable claims occurred because Hudson River did not
properly comply wiih its policies and procedures for determining the allowability ofcosts
claimed to federal grants," and, more precisely, because "Hudson River did not know approval
was required fur budget deviations." Id.
Response:

This finding is wiihout merit

No prior approval requirement of the breadih described by the OIG exists. The portion of the
unifonn administrative requirements cited in the draft report. 45 C.F.R. § 74.25(b), provides tbat
awardees "are required to report deviations from budget and program plans, and request prior
approvals for budget and progmm plan revisions, in accQ7'dance with this section..., 45 C.F.R. §
74.25(b} (emphasis added).

The "in accordance with this section" qualification refers, in the case ofnon-construction
awards, to the eight circumstances enumerated under 45 C.F.R. § 74.25(c). For constmction
awards, a grantee must obtain prior agency approval where one or more ofthe three conditions
listed in 45 C.F.R. § 74.25(f) are met Unless arebudgetinggives rise to one of the situations
under 45 C.F.R. § 74.25(c) or (t), an awardee is free to implement tbat rebudgeting v.rithout first
obtaining approval from the grantor agency.

None of the relevant conditions is present here, and HRHCare•s expenditure ofthe questioned
$168.357.00 is therefore proper. Only two ofthose conditions- changes in project scope or
objective, and need for additional federal funding - have any conceivable beari~ given the
nature of the OIG's concerns, but not even those two conditions apply in :this matter. The extent
to which HRHCare exceeded the budgeted amounts under any of the line items identified by the
OIG did not~ a need for more federal funds. nor did it entail a transfer of funds among oost
categories that would comprise a change in project scope. HRHCare consulted v.rith HRSA
                                                                                                      Page 5 of6




regarding whether it needed to obtain prior approval in order to reallocate CIP dollars from one
funded project to another. See Att. C. Consistent with the HHS Grants Policy Statement, HRSA
advised HRHCare that agency approvals for such budget actions were necessary only if the
cumulative changes exceeded 25% of the total award budget. ld

What is more, in the one instance where HRHCare eliminated a relatively high value budget line
item and moved those funds to another project, HRHCare sought and obtained HRSA approval.
HRHCare budgeted $175,000.00 for the VoiP projectand$65,000.00in federal funds (out ofa
budgeted $250,000.00) for a medical van. See Att. A. However, the anticipated matching funds
for the mobile medical unit project did not materialize. wllile other line items in the "equipment"
category for the communications/information technology project proved to be more expensive
than HRHCare had budgeted. HRHCare therefore sought a no cost extension from HRSA that
would allow HRHCare to delete the medical van from the budget and to repurpose those funds to
the other equipment purchases where the costs were over budget. See Att. D. The request was
approved. See Att. E.

In light of the above, the questioned costs ,are allowable.

IlL    Expenditures for the Increased Demand for Services Grant

Finding:

The draft report indicates that "Hudson River did not adequately document $19,972 in salary
costs that it cbarged to the IDS grant; therefore, these costs were unallowable." See Draft Report
at 5. or that $19,972.00, $14,115.00 related to charges for compensation to two employees that
were in excess ofwhat the employees' personnel activity reports reflected. ld The remaining
$5,857:00 related to salary costs for wiricb :there was no supporting documentation. Id.

Response;

HRHCare has a comprehensive policy for tracking and documenting time and eff'Ort of
employees. HRHCare endeavors to ensure 100% compliance with its existing policy. The time
and ·effort process is regularly reviewed by grant funders and HRHCare .auditors. HRHCare
acknowledges the errors cited by the OIG report :and does not dispute this finding.

IV.    Other Matter: Employee Salaries and President and ChiefExecutive Officer Bonuses

This portion of ilie draft report contains no findings or recommendations, but instead consists of
various observations concerning (1) HRHCare's financial position immediately prior to and
during tbe IDS award period. and (2) bonus compensation to HRHCare's chief executive officer
(..CEO") in 2009 :and 2010. See Draft Report at 5-6.
                                                                                                  Page 6 of6




Because this discussion has no bearing on the findings and recommendations dsewhere in the
draft report, and otherwise lacks any independent relevance, it warrants no response and
HRHCare respectfully requests that it be removed from the final audit report.

That said, HRHCare maintains that compensation paid to its CEO during the rele\(ant time period
-and, for that matter, all time periods- was in keeping with HRHCare's duly approved and
legally sound policies and procedures.

                                       CONCLUSION

HRHCare appreciates the opportunity to provide the above responses to the OIG's draft audit
report. Should the OIG have any questions, comments, or concerns regarding these responses,
we stand ready to provide any additional information that the OIG may require.
                                                                                                      Page 1 of2


         APPENDIX B: HEALTH RESOURCES AND SERVICES
                 ADMINISTRATION COMMENTS




                                                .'
                                                ''




TO:         inspe.cto:r Genc~al.

FROM:       Administrator

St'BJECI": 	Oi:G Drnfi Repon: -Hooson River HealthCare, Inc., Oaim.ed UMlk~\\-able iFeder:tl
            Gmnit Expcmiitures·· \A-02.-ll-lJ2014)

Atmciled is the i Icalth Resources an..! Sen-ices AdmiuistratiOla·s (HRSA) rr~nse to 'I~ OKi's
draft :rqmlflt.. -aadson River HealthC:arc. lloc_ Oai.med CnaUow:able Federal. Gr.:ml Expenditures­
(A-02-! l-02014). If you h:we any questions. p!ea.'ie contaict Sm;dy Seaton in HRSA ·s Office of
Frocml Assistance Management at {31H) 443-243:2.



                                         ~.?uU~.L 4--~·~
                                              Mary K. Wakefidd. Pi!.D.. R.N.
                                                                                                                           Page 2 of2




   Health Resources and Sen·ices Administration's Comments on the OiG Draft Report­
    -Hudson Ril•er He.aitnC:are~ Ine. Claimed Vm:all~b~ Federal Grant f.:.;pendib.u-es­
                                       (A.02-H-J!l20l4)

The Health Rc·se:un:cs anJ S.:-n. ices Admini:sl.r,uion t!IRSJ\) appreciak"S d'!e Opl!)IX!u;;·-aiz:,; to
         tfl <,~ :l~\ c Jrr.aft rcporL HRSA-s l"t."Spom:e to the Office of kspccio; Ge~..'ral (OIGI
r~(".urnm.enJations are :as f(l'-H(~\\S:


OIG Reeommendation:

We r<.'l:"ommem:l tha< URSA cnsme that Hud.<>on Ri\"cr refunds $28R558 lo U'!e Freerdi
(i{;\,;-rruneut {5260586 related [O the nP ~rant ami Si9.972 relaieil <Z"•ltle ms gmr!tl.

UR..~A     Response:




We r<."Commcm:! th;ll fiRS.\ .:nsure Ulait Hudson River follows its t-'ll)!ic·ies a;:d                proccdm~"S     for
dck·rmining d'!e a!im'iabiliiy of costs d:<~im~e>J lo h>Jernl :gr~ts.

HRSA Response:


L~~   gr-..1au..;-e adhcr~""S to its pi)~icaes ~nd pn>C\.""durt,~ f(llr d~tcrmining ilie a"!v1•>1;J:D!m·,- of cost..;;
\."i:airn~~J  tto 1~~(-ra~ gr~"'liS.~
